Ton |

C@OCKLE

Legal Briefs E-Mail Address:
8 f contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-532
UNITED STATES OF AMERICA,
Petitioner,

Vv.
STATE OF CALIFORNIA, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of November, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE SOUTHEASTERN LEGAL
FOUNDATION IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
KIMBERLY S. HERMANN KURT R. HILBERT
ANNA CELIA HOWARD Counsel of Record
SOUTHEASTERN LEGAL THE HILBERT LAW FIRM, LLC
FOUNDATION 205 Norcross St.
560 W. Crossville Rd., Roswell, GA 30075
Ste. 104 (770) 551-9310
Roswell, GA 30075 khilbert@hilbertlaw.com

Counsel for Amicus Curiae

Subscribed and sworn to before me this 22nd day of November, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

create,  C Ollie Qudiew-h. Chel,

My Commission Expires Nov 24, 2020
Notary Public Affiant

 
United States v. State of California, et al.
U.S. Supreme Ct. No. 19-532
Service List

Attorney for Petitioner, United States:
Noel J. Francisco, Solicitor General
United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

Attorney for Respondents, State of California, et al.:
Aimee Athena Feinberg

California Department of Justice

1300 I Street

Sacramento, CA 95814

916-210-6003

Aimee.Feinberg@doj.ca.gov
